LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

April 29, 2020
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 19-1184 : NIKKI BRUNI; JULIE COSENTINO; CYNTHIA RINALDI; KATHLEEN
LASLOW; AND PATRICK MALLEY V. CITY OF PITTSBURGH,
PITTSBURGH CITY COUNCIL; MAYOR OF PITTSBURGH
Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Constitutional
Law Professors, on April 29, 2020, I caused service to be made pursuant to Rule 29 on
the following counsel for the Petitioners and Respondents.
PETITIONERS:
John J. Bursch
Alliance Defending Freedom
440 First Street NW
Suite 600
Washington, DC 20001
616-450-4235
jbursch@adflegal.org

RESPONDENTS:
Michael Edwin Kennedy
City of Pittsburgh Law Department
Associate City Solicitor
414 Grant Street
Third Floor, City County Building
Pittsburgh, PA 15219
412-255-2025
michael.kennedy@pittsburghpa.gov

This service was effected by depositing three copies of the Brief of Amici Curiae
Constitutional Law Professors in an official “first class mail” receptacle of the United
States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal

Sworn and subscribed before me this 29th day of April 2020.

